r • *•

O:

20“ 5 95 o:
No:

r

In the
Supreme Court of the United States
1

ALEX McCOY,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Alex McCoy
Register Number 22496-058
FCI Loretto
P. O. Box 1000
Cresson, Pennsylvania 16630

Coun, as.
HL^.0

1
I

79

;

QUESTIONS PRESENTED FOR REVIEW
Over the yearts, this court has issued several ineffective assistance of
counsel claims addressing counsel’s failure to prepare and misadvise to a
defendant resulting Sixth Amendmend due process violations; Wiggins v.
Smith, 539 U.S. 510, 123 S. Ct. 2527 (2003), Porter v. McCollum, 558 U. S.
30 (2009) (counsel’s failure to review a defendant’s background), Rompilla
v. Beard, 545 U. S. 374 (2005) (failure to learn all related to an offense); and
recently in Andrus v. Texas, 140 S. Ct. 1875 (2020) (failure to prepare for
sentencing in capital cases). In this trend should this court grant certiorari
on a failure to properly advise McCoy of the facts of the government’s
charges with the following questions:
1. Was trial counsel ineffective in his directive to advise McCoy to plead
guilty by failing to review the government’s discovery in violation of this
court’s decision in Andrus v. Texas, 140 S. Ct. 1875 (2020)?
2. Should the order of the court of appeals denying a certificate of
appealability be reversed and remanded because it is manifestly incorrect to
suggest that no reasonable jurist could disagree with a district court order
summarily denying a motion under 28 U.S.C. § 2255, where that order
directly conflicts with the controlling decisions of this Court and the plain
language of § 2255?

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
Fourth Circuit and the United States District, Western District of North Carolina.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

iii

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

v

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and
Regulations Involved......................................................

2

Statement of the Case

5

Statement of Relevant Facts

5

Reasons for Granting the Writ

7

Was trial counsel ineffective in his directive to advise McCoy to plead
guilty by failing to review the government’s discovery in violation of this
court’s decision in Andrus v. Texas, 140 S. Ct. 1875 (2020)?.....................

8

Should the order of the court of appeals denying a certificate of
appealability be reversed and remanded because it is manifestly incorrect to
suggest that no reasonable jurist could disagree with a district court order
summarily denying a motion under 28 U.S.C. § 2255, where that order
directly conflicts with the controlling decisions of this Court and the plain
language of § 2255?.........................................................................................

12

Conclusion

15

United States v. McCoy, 810 F. App'x 223 (4th Cir. 2020)

A-l

McCoy v. United States, 2020 U.S. Dist. LEXIS 18172 (W.D.N.C. Feb. 3,
2020) ...............................................................................................................

B-2

IV

TABLE OF AUTHORITIES
Andrus v. Texas, 140 S. Ct. 1875 (2020)

8

Barefoot v. Estelle, 463 U.S. 880 (1983)

13

Buckv. Davis, 137 S.Ct. 759 (2017)

12, 13

Gonzalez v. Sec'y, Dept, of Corrections, 366 F.3d 1253 (11th Cir. 2004)

13

Lambrix v. Sec'y, Dept, of Corrections, 872 F.3d 1170 (11th Cir. 2017)

13

Miller-El v. Cockrell, 537 U.S. 322 (2003)
Porter v. McCollum, 558 U. S. 30 (2009)

12, 13
8

Putman v. Head, 268 F.3d 1223 (11th Cir. 2001)

14

Rompilla v. Beard, 545 U. S. 374 (2005)

11

Sears v. Upton, 561 U. S. 945 (2010)

10

Slack v. McDaniel, 529 U.S. 473 (2000)

12

Strickland v. Washington, 466 U.S. 668 (1984)

10

Tennard v. Dretke, 542 U.S. 274 (2004)
United States v. Hadden, 475 F.3d 652 (4th Cir. 2007)

12, 14
9, 10

United States v. McCoy, 810 F. App'x 223 (4th Cir. 2020)

2

United States v. McCoy, 895 F.3d 358 (4th Cir. 2018)

6

Wiggins v. Smith, 539 U.S. 510 (2003)
Williams v. Taylor, 529 U. S. 362 (2000)

8,9
8

Statutes
21 U.S.C. §§ 841(a)

5

21 U.S.C. §§ 841(a)(1)

5
2,3,5

28 U.S.C. §1254(1)
28 U.S.C. § 2253(c)(1)(B)

12

28 U.S.C. § 2255

12

Rules
Supreme Court Rule 10

7,8

Supreme Court Rule 10.1(a)

8

Other Authorities
1 American Bar Association Standards for Criminal Justice 4-4.1 (2d ed. 1982
Supp.).....................................................................................................................

VI

11

No:

In the
Supreme Court of the United States

ALEX McCOY,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Alex McCoy (“McCoy”), the Petitioner herein, respectfully prays that a writ of
certiorari is issued to review the judgment of the United States Court of Appeals
for the Fourth Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Fourth Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision entered on June 23, 2020,
in United States v. McCoy, 810 F. App'x 223 (4th Cir. 2020) and is reprinted in the
separate Appendix A to this petition.
The denial of Petitioner’s Title 28 U.S.C. § 2255 in the Western District of
North Carolina, McCoy v. United States, 2020 U.S. Dist. LEXIS 18172 (W.D.N.C.
Feb. 3, 2020) was denied on February 3, 2020, and is reprinted as Appendix B to
this petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on June 23, 2020.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a)
and 28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.

2

Id. Fifth Amendment U.S. Constitution
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and District wherein the
crime shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Chapter 153 of Title 28, U.S. Code (“Habeas Corpus”), provides, in pertinent
part:
§ 2253. Appeal
(a) In a habeas corpus proceeding or a proceeding under section 2255 before a
district judge, the final order shall be subject to review, on appeal, by the court
of appeals for the circuit in which the proceeding is held.
(b) * * * *

(c) (1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if the
applicant has made a substantial showing of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate which
specific issue or issues satisfy the showing required by
paragraph (2).

3

§ 2255. Federal custody; remedies on motion attacking sentence:
(a) A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the
sentence was imposed in violation of the Constitution or laws of the
United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by
law, or is otherwise subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the sentence.
(b) Unless the motion and the files and records of the case conclusively
show that the prisoner is entitled to no relief, the court shall cause notice
thereof to be served upon the United States attorney, grant a prompt
hearing thereon, determine the issues and make findings of fact and
conclusions of law with respect thereto. If the court finds that the judgment
was rendered without jurisdiction, or that the sentence imposed was not
authorized by law or otherwise open to collateral attack, or that there has
been such a denial or infringement of the constitutional rights of the
prisoner as to render the judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the sentence
as may appear appropriate.
(c)

* * * *

(f) A 1 -year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the United
States is removed, if the movant was prevented from making a motion by such
governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the Supreme Court
and made retroactively applicable to cases on collateral review; or

4

(4) the date on which the facts supporting the claim or claims presented
could have been discovered through the exercise of due diligence.
* * * *

Id. Title 28 U.S.C. § 2255
STATEMENT OF THE CASE
McCoy was charged on October 17, 2015, via criminal complaint alleging a
violation of 21 U.S.C. §§ 841(a), 841(b)(1)(A) and with one count of conspiracy to
traffic controlled substances, in violation of 21 U.S.C. §§ 841(a)(1) and 846. The
indictment alleged in additional counts that McCoy distributed and possessed with
intent to distribute cocaine base on or about, July 31, 2015, and two charges of
distributing cocaine base on August 4, 2015. (Counts 6 and 7). (Dkt. 38). McCoy
was approached with a plea agreement to plead guilty to Count 1 of the indictment.
Although McCoy was incarcerated during a majority of time alleged in Count 1,
McCoy agreed to plead guilty in exchange for dismissal counts 5, 6, and 7. The
government agreed to dismiss any § 851 prior filings. (Dkt.71 at 2).
McCoy eventually filed several letters with the court after noting his
displeasure with trial counsel. (Dkt. 104, 107, 113). The Court addressed the matter
on September 6, 2016, and October 19, 2016, and where new counsel was
appointed. (10/25/2016 Journal Entry). Sentencing was held on January 23, 2017.
After addressing several sentencing objections, the court sentenced McCoy to 292
months of incarceration. (Dkt. 118). An appeal ensued and on July 13, 2018, the
5

Fourth Circuit Court of Appeals affirmed McCoy’s sentence and conviction.
United States v. McCoy, 895 F.3d 358 (4th Cir. 2018). This court denied a writ of
certiorari on November 13, 2018. Post-conviction motions and appeals were
denied as well as noted herein. This timely petition for writ of certiorari followed.

STATEMENT OF THE RELEVANT FACTS
McCoy was incarcerated until January 4, 2013. The conspiracy in his case
occurred between on or about 2013 and June 2015. (Dkt. 38) Most of the time the
government alleged the conspiracy was active, McCoy was in federal custody.
The government did not allege (nor can they allege) and counsel did not raise the
defense that McCoy was not involved in the conspiracy while in prison. While
issues exist regarding the exact nature of the conspiracy, McCoy cannot separate
himself from his drug transactions. This is a classic case of an attorney’s failure to
review the government’s discovery before advising his client.
On December 23, 2013, the law enforcement team utilized a confidential
source to purchase 2 grams of crack cocaine from the McCoy at his residence.
There another purchase of 6.9 grams on February 10, 2014. There were no further
purchases directly with McCoy. On July 6,2015, law enforcement seized
approximately 25 grams of crack cocaine from co-defendant Mickey Burris who
admitted that it belonged to him. Burris then changed is the story and said he
acquired the crack cocaine from McCoy. After the conspiracy ended (as per the

6

indictment), there were four additional purchases from co-defendant Eric Briggs,
who resided at McCoy’s residence on July 7, 2015 (12.6 grams), July 13, 2015
(12.9 grams), July 31, 2015 (41 grams), and August 4, 2015 (41 grams). McCoy
was not involved in those transactions. That was the extent of involvement with
crack cocaine and McCoy. On November 3,2015, McCoy was arrested and 2
ounces of cocaine base were seized from the residence.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FOUTH
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a)When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.

7

(b)When a... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c).
QUESTIONS PRESENTED
1. Was trial counsel ineffective in his directive to advise McCoy to plead
guilty by failing to review the government’s discovery in violation of this
court’s decision in Andrus v. Texas, 140 S. Ct. 1875 (2020).
To assess whether counsel exercised objectively reasonable judgment under
prevailing professional standards, this court first asks “whether the investigation
supporting counsel’s decision was itself reasonable.” Id. , Wiggins v. Smith, 539
U.S. 510, 123 S. Ct. 2527 (2003), see also Id., at 528 (considering whether “the
scope of counsel’s investigation into petitioner’s background” was reasonable);
Porter v. McCollum, 558 U. S. 30, 39, 130 S. Ct. 447, 175 L. Ed. 2d 398 (2009).
“It is unquestioned that under prevailing professional norms at the time of
[McCoy’s] case, counsel had an ‘obligation to conduct a thorough investigation of
the defendant’s case.’” Id. Porter at 39 (quoting Williams v. Taylor, 529 U. S. 362,
396, 120 S. Ct. 1495, 146 L. Ed. 2d 389 (2000)). Counsel has ‘a duty to make
reasonable investigations or to make a reasonable decision that makes particular
investigations unnecessary.” Id. Wiggins at 521. “In any ineffectiveness case, a
particular decision not to investigate must be directly assessed for reasonableness
in all the circumstances, applying a heavy measure of deference to counsel’s
8

judgments.” Wiggins, 539 U. S., at 521-522. Here all these fundamental principles
were ignored.
With the foundation of counsel’s responsibilities laid out, the assessment of
trial counsel’s performance in McCoy’s case comes into clear focus. The errors of
this case are straightforward, counsel provided erroneous advice that severely
prejudiced McCoy. McCoy is only requesting one relief, to “be placed back pre­
trial where he was before he was misled into pleading guilty:”
"[T]he goal of § 2255 review is to place the defendant in exactly the same
position he would have been had there been no error in the first instance."
United States v. Hadden, 475 F.3d 652, 665 (4th Cir. 2007).
Id. Boydv. United States, No. 3:16-cv-328-MOC, 2019 U.S. Dist. LEXIS 193493,
at *4-5 (W.D.N.C. Nov. 6,2019).
The sentence was violative of his right to effective assistance of counsel. As in
Andrus, there was no preparation by counsel before advising McCoy on how to
proceed. In the affidavit supporting 2255, he provided how he never saw the
factual basis before having trial counsel execute it. The factual basis was executed
14-days after the plea agreement was executed. (D/E 70). McCoy was advised by
counsel that the factual basis supported a plea of 240 grams of crack cocaine,
however, counsel had not seen the factual basis before advising McCoy. To
complicate matters, any changes that were made in the plea agreement were never
explained nor noted by McCoy. When the plea agreement was modified to include
“crack cocaine” instead of powder cocaine, McCoy did not execute the changes so
9

he was not aware of the “840 - 2800” gram quantity as alleged. To the contrary,
the government alleged that the crack cocaine attributable to McCoy was only 240
grams of crack cocaine:
MR. KAUFMAN: So, Your Honor, going back to - all right, Your Honor. So
going back to paragraph 8, the amount of a mixture and substance containing a
detectable amount of cocaine base that was known to or reasonably foreseeable
by the defendant was at least 240 grams but less than 2,800 grams.
Id (Dkt. 126 at 9).
Deficient performance having been shown, the question remains whether
counsel’s deficient performance prejudiced McCoy. See Strickland v. Washington,
466 U.S. 668, 692 (1984). Here, prejudice exists since there is a reasonable
probability that, but for his counsel’s ineffectiveness, McCoy would not have pled
guilty. That claim is supported by the affidavit provided with the 2255 petition. In
assessing whether McCoy has made that showing, a reviewing court must consider
“the totality of the available evidence - both that adduced at trial, [here at the
change of plea] and the evidence adduced in the habeas proceeding” - and
“reweig[h] it against the evidence in aggravation.” Sears v. Upton, 561 U. S. 945,
956, 130 S. Ct. 3259, 177 L. Ed. 2d 1025 (2010) (per curiam) (“A proper analysis
of prejudice under Strickland would have taken into account the facts uncovered,
to assess whether there is a reasonable probability that [the defendant] would have
received a different sentence” (citing cases)). And since McCoy’s plea was
involuntary based on misadvise, prejudice only requires a reasonable probability of
10

at least a different sentence existing. The failure to present McCoy’s non­
involvement in this offense and directing McCoy to accept a guilty plea without
reviewing the factual proffer until 14-days post plea agreement execution
establishes a lack of preparation. This failure, too, reinforces counsel’s deficient
performance. See Rompilla v. Beard, 545 U. S. 374, 385, 125 S. Ct. 2456, 162 L.
Ed. 2d 360 (2005) (“counsel ha[s] a duty to make all reasonable efforts to learn
what they c[an] about the offense[s]”.) “On a claim of ineffective assistance of
counsel in preparation for sentencing, a standard of reasonableness applies as if
one stood in counsel's shoes.” Id. Rompilla at 377. “The investigation should
always include efforts to secure information in the possession of the prosecution
and law enforcement authorities. The duty to investigate exists regardless of the
accused's admissions or statements to the lawyer of facts constituting guilt or the
accused's stated desire to plead guilty.” 1 American Bar Association Standards for
Criminal Justice 4-4.1 (2d ed. 1982 Supp.). Id., 377.
In this case, there was no investigation whatsoever. At least none that would
lead counsel to advise McCoy to plead guilty to drug quantities alleged in the
factual basis that was not read at the time. Having read the factual basis 14-days
after the execution of the plea agreement can hardly be said to meet the minimum
expectations of efficient assistance of counsel as explained in Strickland, Andrus,
Wiggins, Porter or Rompilla. A writ of certiorari should be granted in this matter.

11

2. Should the order of the court of appeals denying a certificate of
appealability be reversed and remanded because it is manifestly incorrect to
suggest that no reasonable jurist could disagree with a district court order
summarily denying a motion under 28 U.S.C. § 2255, where that order
directly conflicts with the controlling decisions of this Court and the plain
language of § 2255?
This Court has been called upon repeatedly to reverse the courts of appeals’
failure to apply the well-established standard for issuance of a certificate of
appealability. The present case is another, calling for a summary grant of certiorari,
vacatur of the order below, and remand with directions to apply the governing
standard and grant the requested certificate of appealability (“COA”).
This Court’s cases clearly and firmly establish that a COA must be allowed
pursuant to 28 U.S.C. § 2253(c)(1)(B) and Fed.R.App.P. 22(b)(1) whenever
the correctness of the district court’s disposition is at least “debatable” among
jurists of reason. See Buck v. Davis, 580 U.S.

, 137 S.Ct. 759, 773-75 (2017)

(reiterating and applying governing standard for issuance of COA); Tennard v.
Dretke, 542 U.S. 274, 282-83 (2004) (denouncing court of appeals’ “paying
lipservice” to COA standard while improperly prejudging the merits); Miller-El v.
Cockrell, 537 U.S. 322, 335-38 (2003) (“threshold inquiry does not require full
consideration of the factual or legal bases adduced in support of the claims. In fact,
the statute forbids it”); Slack v. McDaniel, 529 U.S. 473, 484 (2000) (if
“reasonable jurists could debate whether (or, for that matter, agree that) the petition

12

should have been resolved in a different manner”), reaffirming Barefoot v. Estelle,
463 U.S. 880, 893 (1983) (former “certificate of probable cause” standard).
To obtain a COA, the showing of possible error need not be conclusive. Far
from it. As explained in Miller-El, a “claim can be debatable even though
every jurist of reason might agree, after the COA has been granted and the case has
received full consideration, that petitioner will not prevail.” 537 U.S. at
338. In short, § 2253(c) establishes a low threshold for granting a COA. Buck v.
Davis, 137 S.Ct. at 773-75. “We reiterate what we have said before: A ‘court of
appeals should limit its examination [at the COA stage] to a threshold inquiry into
the underlying merit of [the] claims,’ and ask ‘only if the District Court’s decision
was debatable.’” Id. 11A (bracketed insertions original), quoting Miller-El, 537
U.S. at 327, 348. Despite binding Circuit precedent acknowledging the proper
standard, see, e.g., Lambrix v. Sec ’y, Dept, of Corrections, 872 F.3d 1170, 1179
(11th Cir. 2017) (per curiam); Gonzalez v. Sec'y, Dept, of Corrections, 366 F.3d
1253, 1267-68 (11th Cir. 2004). Because his § 2255 motion more than sufficiently
alleged that petitioner McCoy sentence was imposed in violation of his
constitutional rights and because reasonable jurists could (to say the least) disagree
with the district court’s summary disposition of the procedural ground of statute of
limitations/equitable tolling, the court of appeals was bound by law to grant the

13

requested certificate of appealability. Putman v. Head, 268 F.3d 1223, 1227-29
(11th Cir. 2001), the lesson taught by this Court’s cases remains
unlearned in practice, as the present case illustrates. No new law needs be
established to resolve this case. The Fourth Circuit simply refused to follow
controlling precedent concerning Certificates of Appealability, instead “paying lip
service” to those standards as articulated by this Court. See Tennard
v. Dretke, 542 U.S. at 283. To enforce the binding effect of its precedent, the Court
should grant the writ, summarily reverse the order of the court below,
and remand with directions to issue a COA on the constitutional issues identified
above in the Statement of the Case.

14

CONCLUSION
For the foregoing reasons, petitioner McCoy prays that this Court grant his
petition for a writ of certiorari, reverse the order of the court of appeals,
and remand for further proceedings
Done this

£ , day of September 2020.
Alex McCoy
Register Number 22496-058
FCI Loretto
P. O. Box 1000
Cresson, Pennsylvania 16630

15

